Supreme Court, U.S.
FILED

MAY 0 6 2021
i

No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

HERBERT GARFIELD GARDNER

— PETITIONER

(Your Name)
vs.
BOBBY LUMPKIN

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Herbert Garfield Gardner TDCJ#1948640

(Your Name)
3872 FM 350 SOUTH

(Address)
Livingston^ TX 77351-0000
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
Compelling reasons exist for the exercise of the court's discretionary juris­
diction. The Fifth Circuit's [COA - DENIAL] "conflicts" with prior Supreme Court
and federal law precedent. The national importance of having the Supreme Court de­
cide and consider these important questions when state habeas applicants are being
time-barred for procedural non-compliance error defects, andrhave not been accorded
the fair notice or opportunity to respond because of misleading order instructions
issued by court officials who deliberately fail to send "notice of defect" with
warning that failure to comply could result in dismissal.
1. Whether state trial court's "external interference" constitutes rare and
extraordinary circumstance sufficient to excuse statute of limitations
time-bar, when they failed to accord fair notice and opportunity to
respond, correct and resubmit?
2. Whether the Fifth Circuit abused its discretion in denying COA without
ordering the development of the factual record to examine petitioner's
allegation that state imposed imediment was the legal cause of time-bar?
3. Whether the Fifth Circuit's decision to deny COA conflicts with prior
Supreme Court decisions "rejecting" Fifth Circuit's [COA - TEST]?
The Supreme Court should examine the "LEGAL CAUSE" behind the state trial
court's ministerial action "induced" by court officials to avoid any possibility
of an acquittal on appeal,'-•'and to derail habeas relief with timeliness obstacle
resulting in time-bar* For these reasons, pro se petitioned' fiailureeto raise his
habeas claims earlier solely on the basis of state imposed impediment is cause
outside of his control. McClesky v. Zant, 499 U.S. 467,495 (1991)

l

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Herbert Garfield Gardner (Federal Prisoner:#1948640)
Petitioner - appellant

Herbert Garfield Gardner
[NTC Pro Se]
CID Polunsky Prison
3872 FM 350/S.
Livingston/ TX 77351-0000

v.
Bobby Lumpkin/ Director/ Texas Department of Criminal Jessica Michelle Manojlovich
Justice/ Correctional institutions Division
[COR LD NTC Government]
Office of the Attorney General
Respondent - Appellee
P.O. BOX 12548
Capitol Station
Austin, TX 78711-2548

RELATED CASES

ii

TABLE OP AUTHORITIES CITED

PAGE NUMBER

CASES
Critchley v. Thaller, 586,F.3d 318,320-21 (5th Cir. 2009)
Davis v. Johnson, 153 F.3d 806, 811 (5th Cir. 1998)
Frad$ v. United States, 456 U.S. at 167
Grillette v. Warden, 372 F.3d 765,770 (5th Cir. 2004)
hall v. Quarterman, 534 F.3d 365-67 (5th cir. 2008)
Hohn v. United States, 524 U.S. at 236
House v. Bell, 547 U.S. 518,536-37 (2006)
McClesky v. Zant, 499 U.S. 467, 495 (1991)
McQuiggen v. Perkins, 569 U.S. at 383
Murray v. Carrier, 477 U.S. at 496
Prieto v. Quarterman, 456 F.3d 511,514 (5th Cir. 2006)
Schlup v. Delo, 513 U.S. 298,327 (1995)
Slack v. McDaniel, 529 U.S. at 484
Wilson v. Warden Sellers, 834 F.3d at 227 Lexis 15515 (2016)

5B
3,5B
5A
3
5C
2,3
5C
1,5C
5C
355C
5B
5C
3
5B

STATUTE AND RULES
TEXAS PENAL CODE ANN § 19.03 (WEST SUPP. 2014)
TEXAS PENAL CODS ANN § 30.02 (WEST) 2011
AEDPA ONE-YEAR STATUTE OF LIMITATION
28 U.S.C. § 2244(a)(1)(B)(C)
28 U.S.C. § 2253(C)(3)
28 U.S.C. § 2254(d)(e)(2)

6
5B
5B

28 U.S.C. § 1651(a)
28 U.S.C. § 1254(1)

5C
5C

TEXAS RULES OF APPELLATE PROCEDURE (RULE 73.1)
TEXAS RULES OF APPELLATE PROCEDURE (RULE 73.2)

5A
5B

OTHER

iii

TABLE OF CONTENTS
OPINIONS BELOW *
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

1
2
3
4A,B
5A/B/C
6

INDEX TO APPENDICES
APPENDIX A
APPENDIX B

FIFTH CIRCUIT [DENIAL OF COAj ...........................
U.S. DISTRICT COURT [DISMISSED 59(e) MOTION .

9A/B

APPENDIX C
APPENDIX D
APPENDIX E

U.S. DISTRICT COURT [DISMISSED WRIT OF HABEAS]
STATE'S PROPOSED ORDER TO DESIGNATE ISSUES

10A/B/C
11* A/B

STATE COURT DECISION

8

12

APPENDIX F

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ft.
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__ 1_to the petition and is
at I],
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
STATE
The opinion of the
court
appears at Appendix__E__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

8 to

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 30/ 2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: f\f^^ ^ ^20_______ , and a copy of the
order denying rehearing appears at Appendix__ b
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
The Supreme Court determined in Hohn v. United States# 524 U.S. at 236; that
a denial of a [COA] could be brought to the Supreme Court through a petition for a
writ of certiorari# to review denials by a circuit judge Or a panel of a court of
appeals under 28 U.S.C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was November 142018
A copy of that decision appears at Appendix &
[ ] A timely petition for rehearing was thereafter denied on the following date:
January 13/2016
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Compelling reasons exist for the excercise of the court's discretionary juris­
diction. Pro se petitioner has been denied due process and has been deprived of basic
fundamental rights and seeks relief to restore those constitutional rights.
The U.S. Court of Appeals for the Fifth Circuit's denial of COA directly con­
flicts with prior Supreme Court and federal law precedent significant to render doubt
and prejudice because they failed to consider legal "cause" for statute of limita-.
tion time-bar was not the result of procedural non-compliance, but the direct result
of a state imposed impediment which prevented h.timeliness was debatable. Slack
The Supreme Court has "REJECTED" the Fifth Circuit's test for COA. Gardner has
clearly demonstrated through his motion for issuance of COA, that summary dismissal
was improper because the "soundness" of the lower court's assessment and procedural
ruling was debatable when Gardner had asserted habeas claims that had not been fully
developed due to that procedural ruling. Slack v. McDaniel, 529 U.S. at 484
The Supreme Court determined in Hohn v. United States, 524 U.S. 236; that a
denial of COA could be brought to the Supreme Court Through petition for a writ of
certiorari under § 1254(1), to review denials by a circuit judge or a panel of a
court of appeals.
158 F.3d 806, 811
A court must
fair notice and a

"Lack of Notice" qualifies for equitable tolling. Davis v. Johnson
(5th Cir. 1998).
not dismiss habeas application without first according applicant
fair opportunity to respond before acting on its own initiative

because one year statute of limitations is tolled for failure to send'"notice of
defect*" Equitable tolling applied during period between lower court's decision and
filing habeas in higher court. Grillette v. Warden, 372 F.3d 765,770 (5th Cir. 2004)
Federal habeas review not precluded because state trial court failed to adjudi­
cate the merits. They did not address a single factual allegation raised in habeas
application. If facts are still not developed despite diligence, petitioner is not
deemed to have "failed to develop" the facts that were adequately presented in state
court, but through no fault of his own. "External interference" prevented review.
In Murray v. Carrier, 477 U.S. at 496 the court stated time bar would be ex­
cused, even in the absence of "cause" when constitutional violation has probably
resulted in the wrongful conviction on one who is actually innocent. Gardner has
been denied due process under the fifth, sixth, and fourteenth amendments of the
U.S. Constitution and has been deprived of his life, liberty, and effective assis­
tance of counsel at trial and on direct appeal. The writ must issue.
3

STATEMENT OF THE CASE
On August 15/2014 Herbert Garfield Gardner entered a not guilty plea to the
charge of capital murder. Jury verdict found him guilty and sentenced him to life
without parole in cause no. 1372136. On that same day he gave notice of appeal.
On direct appeal, appellate attorney argued that the evidence was "insuffi­
cient" to support the jury's verdict that appellant comitted the offense of capi­
tal murder as there was insufficient proof of the predicate crime of burglary. The
Fourteenth Court of Appeals at Houston, affirmed the conviction. NO.14-14-00690CR
On January 13,2016 PDR was refused.[Doc.#9-15, at 1J. Gardner's conviction
became final when his time to seek certiorari review expired on April 12,2016.
That date triggered the statute of limitations for federal habeas corpus review
which expired one year later on April 12,2017.
On December 18,2016 , Clearly within AEDPA statute of limitation 1-year, Mr.
Gardner submitted formal filing of his writ of habeas application in state court
to challenge his conviction under Article 11.07 [Doc.#10-7, at 6-39].
On January 5,2017 - Just three weeks later. State trial court officials
issued: State Proposed Order to Designate Issues, see APPENDIX D on page 11A,B.
On January 25,2018 Gardner submitted an "amended" habeas to "pending" appli­
cation asserting one additional claim that accused Harris County District Attor­
ney's Office of corrupt charging practices.[Doc.#10-8, at 52-67].
On July 23,2018 Gardner filed writ of mandamus to corapell a ruling after
unexplained and unreasonable delay of twenty-three months.[Doc.#10-7, atl; Doc.#
10-9, at 54],
On November 14,2018 The Texas Court Of criminal Appeals, after having re­
ceived habeas application without any recommendation, dismissed writ of habeas ap­
plication for failure to comply with procedural rule 73.1 page-limits.[Doc.#10-3,
at 1].
On December 18,2018 Gardner filed his second "amended" habeas application w/
certificate of compliance. No response. Filed second writ of mandamus to compel
ruling.Doc.#10-16, at 1-2;Doc.#10-17, at 1-2].
On May 22,2019 The Texas Court of Criminal Appeals summarily denied without
written order.[Doc.#10-18, at 1].
On June 3,2019 Gardner filed a writ of habeas in federal court.[Doc.#1-1,at
1-23].

4A

Gardner's federal habeas corpus application raised the issue of timeliness
was outside of his control when state trial court official deliberated held his
initial habeas application in abeyance for twenty-three months w/o any legal expla­
nation whatsoever was improper and constituted rare and extraordinary circumstance
because court officials prevented timely filing because they never sent a "notice
of defect." Gardner raised the foilwing grounds for habeas relief:
1. He is actually innocent of the offense of offense because the prosecution
"induced" perjury and withheld exculpatory evidence documents regarding a
third-party perpetrator, and did not meet it's burden to prove that a
burglary occured beyond a reasonable doubt when ADT-.'ALARM .REPORT WITHHELD.
2. Appellate counsel was ineffective for failing to raise an issue about
whether he was entitled to a jury instruction on the defense of "sudden
passion," was unreasonable.
3. Appellate counsel was ineffective for failing to raise an issue about the
trial court allowing the prosecutor to refer to evidence not in the record
over his trial attorney's objection was unreasonable.
4. Appellate counsel was ineffective for failing to raise an issue about the
prosecutor knowingly used perjured testimony to contrive a conviction was
unreasonable.
On March‘27/2020 The U.S. District Court granted respondent's motion for
summary judgment and dismissed federal habeas application as time-barred by the
governing one year statute of limitation’[Doc.#8].
Gardner filed a response - motion to alter or amend judgment pursuant to rule
59(e) [Doc.#15], On April 9, 2020. The U.S. District court ordered motion denied
and no COA will issue.[Doc.#22];
Gardner filed notice of appeal [Doc.#25]; in forma pauperis granted, May 11,
2020; Motion for issuance of COA [DENIED];[Doc.#32].
On June 12, 2020 Gardner filed motion for issuance of COA in the U.S. Court
of Appeals for the Fifth Circuit [9336123-2]. Motion due satisfied. [20-20238].
Brief in support of COA deadline satisfied. [9336125-1]. Exhibits in support of COA
ENTERED on June 17,2020.
On March 30,2021 The Fifth Circuit's response: [COA - DENIED].

STATEMENT OF THE CASE
4 B

REASONS FOR GRANTING THE PETITION
Compelling reasons exist for the excercise of the court's discretionary juris­
diction. The U.S. Court of Appeals for the Fifth Circuit's denial of Gardner's COA
"conflicts" with prior Supreme Court and federal law precedent. The Fifth Circuit
erred in its objectively unreasonable determining:. .".LEGAL CAUSE" for TIME-BAR.
'-" - i'Ga'rdner,asserted:timeliness issue in his motion for issuance of COA/"showing
cause/" [STATE1 IMPOSED IMPEDIMENT]>on the basis of state trial court official'3
unexplained and unreasonable delay "impeded" and prevented timely filing that re­
sulted in statute of limitations time-bar when court official deliberately failed
to warn and failed to send "notice of defect*"SEE:lssue#2 - Brief in support COA.
Inv^ood faith/-'Gardner^.Was grossly misled to believe that habeas application
was "pending" collateral review/ when just three weeks after formal filing date
December 18/2016. State trial court issued: "The State's Proposed order designating
unresolved issues of ineffective assistance of counsel." Misleading order instruc­
tions were "frivolous*" No response - no review ever happened* this.order dated:
January 5,2017s see[APPENDIX - D]• There was no adjudication on the merits.
Gardner demonstrates how state trial court official's ministerial action was
nothing more than a "strategic delay tactic" "induced" bo goad habeas applicant
into procedural default making compliance with procedural rules impracticable while
not only preventing timeliness* but also preventing any possibility of an acquittal
on appeal. Failure to adjudicate on the merits of plausible habeas claims denied
due process constitutional right to "one full round" of habeas review.
The record reflects a substantial delay of (23) months in whigh court official
[HELD] habeas application in "ABEYANCE" and failed to respond to appeal update in­
quires without any legal explanation whatsoever was [IMPROPER]* and unacceptable
because court officials knew that failure to comply with procedural rules could
result in dismissal and ultimately -"statute of limitations 1-year time-bar. [Doc.
#18]. Frady, 456 U.S. at 167; "showing cause."
Gardner asserts that he did not become aware of any procedural non-compliance
to rule 73.1 error issue untill after the Texas Court of Criminal Appeals dismissed
writ of habeas application concluding that submission failed to comply with procedural rule 73.1 page-limits, had resulted in time-bar. [Doc.#10-3, at 1],
Habeas review not precluded because state court declined to follow its own
procedural rule. "Lack of Notice" qualifies for equitable tolling when failed to
accord Gardner fair notice and fair opportunity to respond constitutes "rare and
extraordinary circumstance that made compliance with procedural rule 73.1, imprac5 A

ticable. Habeas review not precluded because Gardner's "legal cause" for state
imposed impediment claim relies on a factual predicate that could not have been
previously discovered. The Supreme Court has held that generally an omission of a
claim from an earlier petition may be excused when objective "cause" shown for
failing to raise the claim earlier and actual prejudice resulted from inability to
raise when state trial court "impeded" with unexplained delay of twenty-three
months is the greater problem when unexplained decisions clearly adopted same rea­
soning: "Gardner's initial habeas corpus application submission failed to comply
with procedural rule 73.1# page-limits was improper. Davis v. Johnson, 158 F.3d
806, 811 (5th Cir. 1998)
Gardner demonstrates and stresses his point. The Fifth Circuit erred when it
denied COA, and the U.S. District Court's summary dismissal was improper because
federal courts are required to "look through" the unexplained decisions to the
last state-court decision that provided relevant rationale. However, that did not
happen, both courts merely adopted same reasoning that was ultimately based on
an erroneous procedural ruling made by state court officials. Wilson v. Warden,
834 F.3d 1227 U.S. App.Lexis (2016)
The Texas Rules of Appellate Procedure [RULE 73.2 Noncompliance], clearly
states: The clerk of the convicting court will not file an application that is not
on the form prescribed by the Court of Criminal Appeals, and will return the appli
cation that ["DOES NOT COMPLY WITH THIS RULE"], return the application to the per­
son who filed it, with a copy of the official form. The clerk of the cour may,
without filing an application that does not comply with this rule, return it to
the clerk of the convicting court, with a notation of the defect, and the clerk of
the convicting court will return the application to the person who filed it, with
a copy of the official forme The "root cause" here is no "notice of defect sent.^]
Gardner's motion for issuance of COA, requested certification on all claims
raised pursuant to 28 U.S.C. § 2254(d). Gardner's assertions "irrefutably made a
sufficient showing" to satisfy requirement 28 U.S.C § 2253(C)(3), when actually,
state court officials failed to comply with procedural rule 73.2, failed to send
"notice of defect" and failed to accord fair notice and opportunity to respond was
reversible error. Gritchley v. Thaler, 586 F.3d 318, 320-21 (5th Cir. 2009)
The Supreme Court "rejected" the Fifth Circuit's [COA-TEST], and has clari­
fied that a COA should issue when important facts deserve encouragement to pro­
ceed further. If facts are still not developed, despite diligence, then Petitioner
has not "failed to develop facts." Prieto v. Quarterroan, 456 F.3d 511,514 (5th
Cir. 2006)
5 B

Gardner diligently sought to develop habeas claims in state court proceedings
but through no fault of his own/ was prevented from doing so, when in "good faith"
he relied on misleading state proposed order instructions, see: [APPENDIX D] on
page 11. Hall v. Quarterman/ 534 F.3d 365-67 (5th Cir. 2008)
Habeas review not precluded. Gardner asserts/ there has been no adjudication
on the merits. The facts are still not developed, which if allegations are true,
merit relief. For this reason, Gardner desperately seeks the court's considera­
tion that adequate relief cannot be obtained in any other form or from any other
court.
Gardner's writ of habeas petition asserts new substantial evidence in support
of his innocence. Gardner has made a prima facie case of "actual innocence," in
light of new evidence wrongfully withheld. But for constitutional errors, it is
more likely than not that no reasonable fact finder would have convicted him be­
yond a reasonable doubt. Schlup v. Delo, 513 U.S. 298,327 (1995)
In Murray v. Carrier, The Supreme Court held that procedural default would be
excused, even in the absence of "cause" when a constitutional violation has pro­
bably resulted in the conviction of one who is "actually innocent." 477 U.S. at
496; also see: House v. Bell, 547 U.S. 518, 536-37 (2006)
Gardner seeks issuance by the court of an extraordinary writ authorized by
28 U.S.C. § 1651(a), because exceptional circumstances warrant the excercise of
the court's discretionary powers, and that adequate relief cannot be obtained in
any other form or from any other court. McClesky v. Zant, 499 U.S. 467,495(1991)
Under AEDPA, State court determinations on ineffective assistance claims are
reviewed under standards set forth in § 2254(d), reviewed under deferential "objectively unreasonable" standard. Where government conduct intended to "goad"
defendant into procedural default and being time-barred, the double jeopardy
clause may bar futher prosecution. Oregon v. Kennedy, 456 U.S. 667,676 (1982)
NATIONAL IMPORTANCE
Gardner stresses that this is a matter of national importance when any per­
son has been denied due process having been deprived of their constitutional right
to "One full round" of habeas review. The Supreme Court should examine and pre­
vent "external interference," to afford future habeas applicants, the full panoply
of the protections afforded by the United States Constitution, to have habeas
claims heard on the merits, allowing fair opportunity to obtain habeas relief.
The writ must issue because failure to review Gardner's habeas claims has re­
sulted in a fundamental miscarriage of justice. McQuiggen v. Perkins, 569 U.S.§83
5 C

Applying AEDPA one-year statute of limitation. Gardner seeks review under
28 U.S.C. § 2244(d)(1):
(B) The date on which the impediment to filing an application created by
state action in violation of the constitution or laws of the United
States is removed/ if the appellant was prevented from filing by such
state action;
(C) The date on which the constitutional right asserted was initially
recognized by the Supreme Court and made retroactively applicable
to cases on collateral review.
For these reasons/ Gardner's petition is not barred and habeas review is
not precluded* COA denial - improper. The solution is simple. Counsel should beappointed. Consider/ to have appellate assistance "extend" throughout habeas review.
"No state ishall deprive any person of life, liberty/ or property without due pro^.:..
cess of lawi!"28 U.S.C. § 1651(a). "Legal cause" for time bar-state;.impedi-ment.

CONCLUSION
Pro se petitioner has been denied due process and has been deprived of basic
fundamental rights guaranteed by the fifth/ sixth/ and fourteenth amendments of
the U.S. Constitution and seeks relief to restore those rights.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

"ch//i

6

